          NURSE PARTICIPATION
        HOSPITAL DECISION MAKING
         POTENTIAL IMPACT ON THE NURSING SHORTAGE




                      Richard P. Kusserow
                     INSPECTOR GENERAL




OAI-0301120
                                  OCTOBER 1988

                                       EXECUTIVE SUMMARY

  PURPOSE

 The puroses of this inspection were to (1) detenne the extent to which nurses
                                                                               parcipate in
 hospital decision makng through representation on hospita governing bodes and key com­
 mittees and (2) describe techniques used by hospitals to retain and recruit nurses. This report
 presents our findigs on hospita decision makg. Hospital recruitment and retention techni­
 ques ar described in a separte report.

 BACKGROUND

 The demand for registered nurses (RNs) has fluctuated over the year -- from a
                                                                                  shortage in the
  1960s to a surplus in the mid- 1970s and back to a shortge at the present time. Even though
 80 percent of the nation s two milion RNs are employed , hospitas ar now
                                                                               experiencing the
 most severe shortage of RN s in recent history. Because of increased patient acuity, hospitals
 need more nurses than ever before; at the same time , more nurses
                                                                    ar choosing to work in
 other health car settngs. Accordig to American Hospital Association
                                                                          (AH) sureys, hospi­
 tal RN vacancies more than doubled from 4.4 percent in 1983 to 11.3 percent by December
 1987.

There is widespread agreement on the major factors which contrbute to the
They include:
                                                                                      curnt shortage.

         salar compression and     limited advancement opportunities;

         changing work schedules, including required night and weekend shifts, without
         adequate compensation;

         frustrtion due to   having to cope with sicker patients and shorter stays;

         lack of recognition and respect for nurses as par   of a professional   health care team;

      lack of autonomy in makng patient care decisions; and

      fewer students opting for nursing careers because of expanded opportnities in
                                                                                    other
      professions.

At an October 1987 hearg on the Nursing Shortage held by the Senate Finance Commttee
Subcommttee on Health , witnesses from nursing and health car organizations
                                                                              cited low pay,
poor workig conditions and lack of input into maagerial decisions as issues faced by the
nursing profession. In December 1987 , Health and Human Services (HHS) Secreta
                                                                                     Otis
Bowen appointed a special Commssion to study the nursing shortge and provide him with a
report and corrective action plan. The Commssion is headed by Carolyne K. Davis
                                                                                     , Ph. D.,
former Admistrtor of the Health Care Financing Admnistration.

This inspection was initiated at the Commssion s request. It was conducted in two phases be­
tween April and September 1988. Phase One was a telephone    surey to chief executive of­
ficers (CEOs) and chief nursing officers (CNOs) at a random sample of 93 hospitas
throughout the U. S. Thiry-one hospitals were contacted in each of three strta: (1) hospitas
with 500 or more beds, (2) urban hospitals with fewer than 500 beds, and (3)
                                                                              rual hospitals

with fewer than 500 beds. Phase Two consisted of visits to a smal number of hospitals
around the countr which have developed strategies and techniques to recruit and retain nur­
ses. This report presents the findings of the telephone surey. Results of
                                                                          the hospital visits
are contained in a companion report to be issued in the near future.


FINDINGS

     The CEOs are the only members of hospita management who consistently attend
     governing body meetings. Over half of all CEOs are voting members , while an
     additional one- third parcipate in a non-voting capacity.

     One-third of CNOs attend governing body meetings regularly and another one-
                                                                                   third
     attend when invited. Fewer than 2 percent of all CNOs vote. Similarly, while other
     hospital management positions may sometimes attend governing body meetings
                                                                                    , they
     rarly vote.



     While one- fifth of governing bodes include nures from the local community, most are
     selected for reasons other than their nursing backgrounds.

     More CNOs serve on planning and joint conference than on executive or fmance
     commttees. Five percent of CNOs are members of their hospital executive committees
     but none vote. Six percent serve on the finance commttee. Five of the six vote.

     In contrst, a CNO has a 50 percent chance of being on the joint conference committee,
    and one chance in thee of sitting on the planning commttee. Over half of the CNOs on
    these commttes vote.

    The majority of CNOs report diectly to CEOs. Most of the remainder ar one level
    down in the organization, reporting to either chief operations officers or executive vice
    presidents.

    According to CEOs, 57 percent of CNOs are paid more than other management officials
    at the same organizational level , and another 40 percent are paid the same. Only 3
    percent are compensated at a lower level.
    Th-quarers of CNOs indicated that nursing budgets      ar prepared at   the unit level
    while 18 percent prepare the budgets themselves. Eighty percent control the nursing
    budgets once approved

   Virually all CNOs control the hirng and firing of nursing staff. Nearly half have
   delegated these authorities to the unit level.

   Nearly 60 percent of CEOs and 85 percent of CNOs believe that input into decision
   makng has a positive effect on nurse retention. Many view it as a relatively minor
   consideration , however , as compard to salares, educational benefits and autonomy on
   the unit.

OBSERVATIONS

   While CNOs seldom vote on governing bodes, they do not appear to have been singled
   out for exclusion from governing body deliberations because, except for CEOs, very
   few other hospital management offcials are voting members.

   The status, autonomy and span of control of today ' s CNOs appear to be greater than
   the past.

   The majority of respondents believe, and we agre, that input into patient care and
   management decisions result in a sense of control in the workplace and a stake in the
   success and well- being of the organization which should ultimately have a positive
   effect on nurse retention.
                                     .............. ............................. ...............................
                                                                              ................  .............
                                                                                   .................. .............
                                                             ............. .......... .... ....... ........         ........................................
                                                                                                              .............................................
                                                                                                                     ................ .......................




                                                                    TABLE OF CONTENTS


 EXECUTIVE SUMMARY

 INTRODUCTION................................

              Backg ro und..........................................................
                                                                                                                  ............................................ 1
              Purpose..................................

              Methodology..........
                                                                                                              ................................................ 2
FINDI NGS 





             Nurse Participation in Hospital
             Governing Bodies................................ ......... ............................ ....................... 3


             Chief Nursing Officer Participation
             on Key Hospital Committees..........................................................................


            Chief Nursing Officer Status
            and Autonomy in Hospital Hierarchy..............................................                                                                    6


             Input into Decision Making as a
             Factor in Nurse Retention............................................................................... 9

OBSERVATIONS ..................................................................................................... j 2


APPENDIX ...................................................... ........................................................ j 3

            Characteristics of the Inspection Sample..........................................

                                       INTRODUCTION

 BACKGROUND

 The demand for nursing services has fluctuated over the years -- from a shortge in the
                                                                                           1960s
 to a surlus in the mid- 1970s and back to a shortage at the present time. Despite the fact that
 80 percent of the nation s 2. 1 millon registered nurses (RNs) ar working, hospitals are now
 experiencing the most severe shortge of RNs in the history of the industr. Because of
                                                                                           sig­
 nificantly incrased patient acuity, hospitals need more nurses than ever before; at the same
 time, more nurses ar choosing to work in other health care settngs. Sureys conducted
 the American Hospital Association (AH) found that vacant RN positions more than doubled
 from 4.4 percent in 1985 to 11.3 percent by the end of 1987.

 Numerous factors have been cited as contrbuting to the hospital nursing shortge.
                                                                                  Among the
 most common are:

       salar compression and   limited advancement opportunities;

      changing work schedules, including requird     night and   weekend shifts, without
      adequate compensation;

      frustrtion and burnout due to   having to cope with sicker patients and frequent patient
      turover;

      little recognition and respect for nures as par of a professional health care team;

      perceptions that quality of car has suffered since the advent of the Medicare
      Prospective Payment System (PPS);

      lack of autonomy in makng patient care decisions; and

      fewer students opting for carers in nursing.

Nurses have trditionaly been the   lowest paid, least respected professional members of hospi­
tal health car teams. In most hospitas, the chief nursing offcer (CNO) has not had equal
status with other hospital managers with comparable responsibilties. In Januar 1988, the
Wisconsin Organization of Nure Executives sureyed its membership to determne the extent
of nursing input to hospital boards. The surey found that 37 percent of nurse executives are
expected to attend board meetings regularly, and 41 percent ar expected to attend some or all
hospita board commttee meeting
 At a hearng on the Nursing Shortge held by the Senate Finance Commttee
                                                                               s Subcommittee
 on Health in October 1987 , witnesses cited low pay, unsatisfactory working conditions and
 lack of input in maagerial decisions as issues faced by the nursing profession. Some health
 care professionals believe that representation of nurses and nuring executives on
                                                                                   hospital
 governing bodes and key hospital commttees may have a positive effect on
                                                                              nure recruitment
 and retention.

 In December 1987, Health and Human Services (HHS) Secretar Otis Bowen
                                                                             appointed a spe­
 cial Commssion to study the nursing shortage and provide him with a report and corrective ac­
 tion plan. The Commssion is headed by Carolyne K. Davis, Ph. , former Admnistrator of
 the Health Care Financing Admnistration.


 PURPOSE

This inspection was initiated at the request of Dr. Davis. Its
                                                               puroses were to (1) determine
the extent to which nurses are represented on governing bodes     and policy-makng commttees
in hospitals around the countr and (2) describe strtegies and techniques used
                                                                                by hospitals to
recruit and retain nurses.


METHODOLOGY

The inspection was cared out in two phases. Phase One consisted of a telephone
                                                                                surey to
random sample of 93 hospitas selected from the universe of al
                                                              Medicar-certfied acute care
non-specialty hospitas in the U. S. The sample contained thee strata:
                                                                      (1) hospitals with 500
or more beds, (2) urban hospitas with fewer than 500 beds and (3) rual hospitas with fewer
than 500 beds. Thiry-one hospitals were contacted in each stratum. At each hospital
                                                                                     , we in­
terviewed the chief executive offcer (CEO) and the Chief Nursing Officer (CNO). We asked
each group questions on topics about which we thought they would be knowledgeable. This
report contains the results of our telephone surey.

Phase Two consisted of on-site visits to a small number of hospitals, most recommended by
State Nures Associations, which have developed strtegies to attrct and retain nurses.
                                                                                         The
results of Phas Two are presented in a companion report entitled, " Hospital Best Practices in
Nurse Recrtmnt and Retention.

Additional detal on the characteristics of our study sample appear in the appendix. The per­
centages cited thoughout this report, unless otherwise noted, are weighted averages which rep­
resent national projections of our actual sample findings to the universe of all
Medicare-certfied acute care non-specialty hospitas in the U.
                                          FINDINGS

 NURSE PARTICIPATION IN HOSPITAL GOVERNING BODIES

 The term governing body refers to the policy mang body of a hospita or other institution. It
 may also be called the governing board , board of trstees, board of diectors or
                                                                                    board of
 managers. In addition to establishing policy, the governing body is responsible for
                                                                                       maitain­
ing quality patient car and providig for institutional management and planning.

Chief executive offICers are consistently represented on governing bodies.

Chief Executive Offcers ar the only    members of hospita management who consistently at­
tend meetings of the governing body. Eighty percent of rual CEOs and nearly 90 percent of
urban CEOs ar represented on their hospital governing bodes. Overall , some 85 percent of
CEOs ar members of their hospital governing bodes.

Accordig to CEOs, other hospital management positions, including executive vice-
                                                                                        presi­
dents, chiefs of staf,
                    chief operations/fmancial officers and CNOs ar     occasionally    repre­
sented on governing bodes.

Most chief nursing officers attend at least some governing body meetings.

We asked CEOs and CNOs to characterize CNO parcipation in hospital governing bodies by
selecting one of thee options: (1) expected to attend regularly, (2) expected to attend when in­
vited and (3) not expected to attend or parcipate. These categories ar simiar to
                                                                                    those used
by the AH Center for Nursing in its 1988 Hospital Nursing Personnel Survey. The following
char provides a breakdown of responses received.



                     CNO ATTENDANCE AT GOVERNING BODY MEETINGS

                               CEO & CNO RESPONSES

                                   (In Percentages)


                         CND Attnds               CND Attends                    CND Does
                     Regulaly                     When Invited                   Not Attend

                    CEO        CNO                 CEO      CNO               CEO         CNO
  STRTU
  500+              51.6      58.                 32.3      35.               16.
  Urban             34.       38.                 37.       41.9              27.         19.4
  Rural             34.       41.9                27.       32.3              37.         25.

  WEIGHTED
  AVERAGES          35.       41.5                32.       37.               31.9        21.6
 Accordig to CEOs, 68 percent of CNOs are expected to attend governing body meetings
 regularly or when invited. In contrast, nearly 80 percent of CNOs responded that they attend
 at least some governing body meetings. Apparently, CNOs feel that they have more oppor­
 tunities for diect input to governing body proceedings than expressed by CEOs.

 Chief executive offcers are usually the only members of hospital management who
                                                                                 vote on
 governing bodies.

 As shown in the following char, the CEO has one chance in two of voting on the governing
 body. However, other hospita maagement officials, including the Chief
                                                                       Operations or Finan­
 cial Offcer (COO/CFO) and the CNO, rarely vote.

                     VOTING MEMBERS OF HOSPITAL GOVERNING BODIES

                       MANAGEMENT POSITIONS IDENTIFIED BY CEOs

                                    (In Percentages)

                            CEOs                         CNOs                         COOs/CFOs
                     Members Vote                    Members Vote                  Members Vote
   STRATUM
    500+              83.          48.4                                              12.
   Urban              93.          69.               10.3                            20.
    Rur               79.3         37.               10.3       3.4                  13.

    WEIGHTED
    AVERAGES          86.          53.               10.3       1.8                  17.



Few governing bodies have nursing advisory committees.

Governing bodes in urban hospitas and large hospitals ar twice as likely to have a nursing
advisory commttee as   ru hospitals. Thireen percent of large hospitals and 14 percent of
urban hospitals reported that their governing bodes have nuring       advisory   commttees, com­
pared with 7 percent of ru    hospitas. Overal, 10  hospitals, just over 10 percent of the sur­
vey respondents, have such commttees. Thre of the ten, al with over 500 beds,
                                                                                    are affiliated
with nursing schools and are therefore required to have nursing advisory commttees by the
Joint Commssion of Accrtation of Healthcar Organizations.

Community nurses occasionally serve on governing bodies.

One- fifth of governing bodes include nurse members from the local community. However.
most are selected for reasons other than their nursing backgrounds. We asked CEOs at
                                                                                         hospI­
tals with no local nure on the governing body whether they had ever considere recommend­
ing that one be appointed. Eleven percent , most of them in urban hospitals, said they had
considered this.
 Some respondents commented on this issue. The CEO at a large hospita stated, " We have
 considered appointig a community nurse to the Board, and ar now tring to identiy a per­
 son of the right statue. " A rual CEO said, " The most importt consideration in the selection
 of board members is their managerial ability. That s a problem with nurses tody; they are not
 taught managerial skils. " Severa respondents indicated they had not considered appointing a
 nurse from the local community because board members ar appointed by local or State
 government officials.


CHIEF        NURS ING          OFFICER PARTICIPATION ON KEY HOSPITAL COMMITTEES

Respondents were asked to identiy the most influential commttees in their hospitals, and
then to indicate whether the CNOs were members and if they vote. The commttees named
most frequently were executive, finance, planning and joint conference. All ar commttees of
the governing body. 





While few chief nursing officers are represented on finance           and executive,   they more fre­
quently serve on joint           conference and planning committes.

The executive commttee is the senior commttee of the governing body and may itself be a
ruling body. Nearly 5 percent of CNOs serve on executive commttees, but none vote.
The fmance commttee is responsible for managing the hospita' s fiscal affai. It monitors
and approves hospital operating and capita budgets. Thre- quarers of CEO
                                                                           respondents iden­
tified finance as an influential commttee. About 6 percent of CNOs serve on this committee;
fewer than 5 percent vote.

In contrst, 37 percent of          CNOs ar members of the planning commttee. The planning com­
mittee formulates the hospital' s strtegic plan. It develops both long- and short-term objec­
tives affecting internal and external hospita affais. Overal, nearly one- quarer of all CNOs
vote on the planning commttee.

Similarly, CNOs have a 50 percent chance of serving on the joint conference commttee.
More than one- thd of al CNOs ar voting members. The joint conference commttee
provides a forum for the discussion of medical affai. It is composed of governing body
members and medcal              staf.
The char on             the following page presents additional detal on CNO paricipation   on key hospi­
tal commttees.
                        CNO PARTICIPATION ON INFLUENTIAL COMMITTEES

   Committee            Times Named                 CNO Member                     CNO Votes
    Finance

    Executive

    Planning
                                                               37.                        23.
    Joint Conference                                           50.                        35.




CHIEF NURSING OFFICER STATUS AND AUTONOMY IN HOSPITAL
HIERARCHY

The majority of chief nursing officers report to the chief executive
                                                                       officer.
Seventy percent of CNOs indicated that they report dictly to
                                                             CEOs. Based on their verbal
responses, CNOs in rual aras report diectly to CEOs more than twice as often as their
counterpars in urban hospitas with 500 or fewer beds.


Nearly half of the respondent hospitals also provided copies of their 

chars. A review of these char showed nearly 60 percent of CNOs
                                                                      curnt organizational
                                                                      reportng to CEOs and 38
percent reportg to second level management. Over 70 percent
equal to or higher than the chief fmancial offcer. 

                                                                  ar at an organizational level
                                                   Additional detai based on our review of

hospital organization chars is provided below.



                                    CNO LINES OF REPORTING
                                            (N=45)

                       Reports                    Reports to                      Other
                       to CEO                     2nd level Mgmt
  STRATU

  500+

  Urban

  Rural


  TOTALS                         (57:8%)               17 (37. 8%)                    (4. 4%)
 Most chief nursing officers are paid as much as or more than their management counter­
 parts.

 Based on CEO responses, some 57 percent CNOs ar paid more than as other hospita manage­
 ment offcials at the same organizational level and 39 percent are paid the same. Only 3 per­
 cent are compensated at a lower level.

 Half of chief nursing officers supervise non-nursing deparents.

About half of CNOs in each strtum supervise non-nursing as well as nuring services. Those
deparents cited most frequently ar social services/discharge planning, quality assurce
rehabilitation and pharcy. Others include housekeeping, central supply, home health
educational services and infection control. As shown below, nearly one- quarer of CNOs su­
pervise four non-nursing services, while 10 percent supervise either one or two non-nursing
deparents.


                       NON- NURSING SERVICES REPORTING TO CNO
                                    (In Percentages)

                                   Number of Services


   STRTUM
   500+                 51.6         16.                                                22.
   Urban                51.6                                                            25.
   Rural                45.                         12.                                 29.

   WEIGHTED
   AVERAGES             51.2                                                            24.



Forty percent of chief nursing offcers are masters prepared.

As shown on the following page, over 40 percent of CNOs have masters degrees and 3 per­
cent have doctora degrees. The CNOs in large and urban hospitals tend to have more
                                                                                     forml
education than CNOs in rual hospitals. One- fifth of CNOs in large hospitals have PhD
degrees. Most CNOs with associate degrees or nuring diplomas ar in rual hospitals.
                                  CNO EDUCATIONAL LEVELS

                                       (In Percentages)

                                      Diploma               BS/BA              MS/MA         PhD
   STRATUM
   500+                                                      12.                64.          19.4
   Urban                                12.                  22.                61.3
   Rur                   16.            32.                  32.3               19.4

   WEIGHTED
   AVERAGES                             21.4                 26.                41.8



The CNO educational levels for large hospitals and urban hospitals in our surey compare

favorably with results of the 1985 annual surey of the American Organization of Nurse Ex­
ecutives (AONE), whose membership consists primarly of CNOs from large hospitas in
urban areas. In that surey, 59. 8 percent of the respondents held masters
                                                                          degres while 2.
percent had completed their PhDs.

As a group, CNOs have fewer advanced degrees than CEOs. According to their own respon­
ses, 60 percent of CEOs are masters prepared , while 4 percent have doctoral degrees.

Nursing departments prepare and administer their own budgets.

Overal , nearly the- quarers of CNOs contacted indicated that budgets are prepared at the
unit level and reviewed by the CNO. Eighteen percent reported that they prepare the nursing
budgets themselves. Nine percent, mostly in rual     hospitals, do not   prepar their own budgets.
Additional detal is provided in the following char.


                               NURSING BUDGET PREPARATION
                                      (In Percentages)
                                              n=93

                        Units Prepare                CND                         Neither
                        CND Reviews              Prepares                        Prepares
  STRTU
  500+                     93.

  Urban                    83.

  Rural                    58.                       29.                          12.


  WEIGHTED

  AVERAGES                72.4                       18.

 Eighty percent of CNOs control nursing budgets once approved, and can reallocate funds
 among line items as needed. In large hospitas, all CNOs control the approved nursing
 budgets.

 Chief nursing officers control hiring and firing of nurses.

 Responsibilty for hirng and fing nursing personnel clearly rests within the nursing depar­
 ment. Nearly half of CNOs have delegated hirng and fIring authority to the unit
                                                                                level. One­
 quarr have also delegated authority to negotiate salares to the unit level.

 Hirng and fuing is done at the unit level in nearly 90 percent of large hospitals and about two-
 thirds of urban hospitals. In rual hospitals, this authority generally rests with the CNO her­
 self. One rual CNO in a very small hospital is also the head nurse of the hospita'
                                                                                       s single
 unit. She does not have   fig   authority. The one CNO in a large hospital who does not have
 firng authority attrbuted this to the provisions of the hospital' s union contract. The char
 below provides additional detai on hirng   and fuing    authority.


                                   HIRING AND FIRING AUTHORITY
                                          (in Percentages)
                                                N=93

                              Unit                      CND                     Unit/CND Hire
                           Hires/Fires             Hires/Fires                   Can t Fire
   STRATUM
   500+                      87.                        . 9.
   Urban                     64.                        35.5
   Rural                     25.                        71.0

   WEIGHTED
   AVERAGES                  47.                        50.                          1.7




INPUT INTO DECISION MAKING AS A FACTOR IN NURSE RETENTION

Most respondents think nurse input into decision making is important.

Nearly 60 percent of CEOs and 85 percent of CNOs believe that input into decision making
has a positive effect on nurse retention. Many respondents indicated that this is just one of
many factors, however, and not as important a consideration to RNs as salares, educational
benefits and autonomy on the unit.
 The following quotes ilustrate the range of opinions expressed by CEOs on the relationship
 between nurse parcipation in decision makg and retention.


        Unless nurses feel they have some control over their occupational functions, why
      would they stay? I'm not the best person to say how to deliver care effectively. I can
      say, ' these are our financial restrictions, ' and then ask nursing, ' what can we do within
      them?'

       My goal is to have an RN on the Board of Trustees and expand nurse participation         to
      the executive committee. Nursing is half of the hospital staff and 90 percent of the
      patient care is delivered by RNs. They want and deserve more representation.

       Today s RN is not the same as 5- 10 years ago. Toda, RNs reflect the values of
                                                                                      all
      women in the workforce. They want and need participation and control in the
      workplace, and are no longer wiling to accept physicians ' orders without question.

       1 question the logical link between job satisfaction and participation   in decision
      making. In my mind, the two are independent variables.

       Money is the main thing. Once that is satisfied, there is no diference between nursing
      and any other job. What keeps nurses on their job is the same thing that keeps other
      people on their jobs. If the job is mae more attractive, more people wil want to do it.

       The two factors are absolutely not related. People leave for other reasons.
                                                                                      The big
      issue is money. Nurses are already part of decision making.

       Nurses are at a lower level where participation in hospital decision making just doesn
      interest them. "



      Ifnurses are involved in decision making, it should be in the nursing department
                                                                                       , not
     on the governing body.

      Nurses are a very mixed up bunch of ladies who aren t interested in anything but
     money. They feel the hospital is there to provide them with a job, not to provide a ser­
     vice to the community.

The CNOs also commented on this issue:

      Nurses remain in organizations with healthy assertive nursing departents where
                                                                                     they
     participate in decision   making. Hospitals with low turnover and vacancy rates are al­
     ready using nurses on decision making bodies.

      There is a relationship, bur' even with a voice in decision making, patient care nurses
     wil still get frustrated and burn out because it s simply a tough job.
,.




            I'm not sure there is a relationship. Nurses do need more input into things that affect
           their own lives, but is that hospital decision making? It is more important to move
           decision making to the unit level and to seek input from staf nurses on how they can im­
           prove their own work as well as patient care.

            All other things being equal, the major factor in nurse retention is autonomy
                                                                                            in their
           clinical practice. "



            They like participating, but other factors, such as money and recognition
                                                                                        , are more im­
           portant in retention.

     Staff nurses want to serve on patient care and nursing   practice committees.

     Thre- quarers of CEOs and over four- fifths of CNOs thin that staf nures are interested in
     serving on commttees, paricularly those dealng with patient care and nursing practice issues.
     Fewer nurses are interested in commttees not dictly work-related. Once on a committee,
     nurses continue to be interested if they believe that their parcipation can make a difference in
     hospital policies or procedurs, and they see a positive effect on their practice.
                                                                                       Thee CNO
     comments ilustrate the range of opinions expressed.

            A nurse s   control over her environment and sense of self-esteem are enhanced by serv­
           ing on a committee. To many nurses, committee membership is as important as
           salaries. "

            Nurses don t realize how complex some issues can be. They agree to serve on a com­
           mittee thinking it wil lead to a better work environment or enhance their clinical prac­
           tice. Then they get bogged down in issues they are not interested in. The issues they
          feel are important are so far down the agenda, they wil never see the light of day. This
           can be extremely frustrating. "

           It really depend on the person. Most nurses just want to do their jobs and don t want
          to get involved. If they di get involved, they would get more job satisfaction. "
,.




                                            OBSERVATIONS



     We found that while most CNOs paricipate to some degre in hospital governing           body meet­
     ings, very few vote. It does not appear, however, that CNOs have been singled out for ex­
     clusion from governing body deliberations which are open to other comparble management
     offcials, because other hospital management offcials (except for CEOs) are rarly voting
     members. There is no indication that the percentage of votig CNO members wil increase
     significantly in the near futur.

     Chief nursing officers are seldom represented on the two hospital commttees where business
     and financial matters are discussed -- executive and finance -- but do parcipate in substantial
     proportons on the planning commttee. Not surrisingly, there is also a high degre of repre­
     sentation on commttees which have trditionally dealt with patient care issues which have al­
     ways been nursing s primar concern.

     The status, autonomy and span of control of tody s CNOs appear to be
                                                                                grater than in years
     past. The majority ar at the level of vice-president in the hospital organization , reportng
     dictly to the CEO. Half supervise non-nursing as well as nursing services, and the majority
     are paid as much as or more than their organizational counterpars. The CNOs control nursing
     budgets and the hirg and fIring of nursing staf. In large hospitals, these authorities have
     been furer delegated to the unit level. These improvements in status may reflect hospitals
     increased awareness of the critical role of nursing, but may also be the result of the efforts of a
     more sophisticated , better educated and better organized nuring profession.

     Most respondents believe, and we agre, that input into decisions -- whether related to the care
     of individual patients, nursing policies and practices, or the hospital' s futue -- provides nurses
     with a sense of control over their work and a stake in the success and well- being of the or­
     ganization as a whole. The Deparent may wish to consider furer longitudinal research as
     a means to obtai definitive data on the impact of parcipation in decision makng on nurses
     employment decisions.
                                             APPENDIX

CHARACTERISTICS OF THE INSPECTION SAMPLE

      Hospital Universe and Respondents by Stratum

      Stratum	                  Universe                         Respondents

                                of Hospitals                   CEOs       CNOs

      500+ Beds                       369

      Urban                           686

      Rur                             718


      Totals	                         773


II.   Hospital Classification by Stratum (n=93)

      Stratum                   Government           Non-Gov                   Investor
                                                   Notfor Profit               Owned
      500+	                     16.                   80.
      Urban	                                          77.4%                    12.
      Rur	                      41.9%                 45.                      12.

      Weighted

      Averages                  25.3%                 62.                      12.3%



III. Other Characteristics
      Eighteen (19.4 percent) of the sampled hospitals ar   religiously   aff1iated. Eleven of
      these ar Catholic.

      Rural hospitas reported a mean vacancy rate of 13. 2 percent while the mean rate for
      both uran and large hospitals is slightly over 12. 6 percent. Overall , the mean vacancy
      rate is 12. 9   percent

      Eleven hospitals (11.8 percent) reported vacancy rates in excess of 25 percent. Seven of
      these are small hospitals in rual areas. Only one hospital has over 500 beds.

      Just over 40 percent have experienced a rise in vacancy rates and the s ame percentage
      have reduced vacancy rates durng the past year. The remainder have)jtayed constant.
